U.S. Department of Agriculture
 Office of Inspector General
     Great Plains Region
         Audit Report



        Farm Service Agency
               and
   Commodity Credit Corporation
 Bidding Procedures and Awards for
            Commodities




                  Report No.
                  03008-2-KC
                  September 2003
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                OFFICE OF INSPECTOR GENERAL

                                     Washington D.C. 20250




DATE:         September 25, 2003
REPLY TO
ATTN OF:      03008-2-KC
SUBJECT:     Farm Service Agency and Commodity Credit Corporation Bidding
             Procedures and Awards for Commodities
TO:          James R. Little
             Administrator
             Farm Service Agency
ATTN:         T. Mike McCann
              Director
              Operations and Review Analysis Staff


This report presents the results of our review of the corrective actions taken on the
recommendations made in our prior audit report on the Farm Service Agency’s controls
to detect potential antitrust activities in bidding procedures and awards for commodity
procurements by the Commodity Credit Corporation. The August 22, 2003, written
response to the official draft report is included as exhibit A with excerpts and the Office
of Inspector General’s (OIG) position incorporated into the Findings and
Recommendations section of the report.
Based on the information contained in the response, we were unable to accept your
management decisions for Recommendations Nos. 1, 2, 3, and 4. Management
decisions can be considered when the Farm Service Agency provides the additional
information outlined in the OIG Position sections of the report.

Please furnish a reply within 60 days describing corrective actions taken or planned and
the timeframes for implementation of those recommendations where management
decisions have not been reached. Please note that Departmental Regulation 1720-1
requires a management decision to be reached on all findings and recommendations
within a maximum of 6 months from report issuance.

We appreciate the courtesies and cooperation extended to our staff during the review.

/s/


RICHARD D. LONG
Assistant Inspector General
 for Audit
                                      EXECUTIVE SUMMARY
            FARM SERVICE AGENCY AND COMMODITY CREDIT CORPORATION
               BIDDING PROCEDURES AND AWARDS FOR COMMODITIES

                                        AUDIT REPORT NO. 03008-2-KC


                                             This review was performed to follow up and
            RESULTS IN BRIEF                 ascertain the status of corrective actions taken
                                             on the recommendations made in an August
                                             1987 Office of Inspector General (OIG) audit
                report and to assess the reasonableness of controls designed to identify
                potential antitrust activities in bidding procedures and awards for
                commodity procurements by the Commodity Credit Corporation (CCC)
                through the Farm Service Agency (FSA) Kansas City Commodity Office
                (KCCO). KCCO is responsible for procuring, transporting, and disposing
                of food commodities to fulfill U.S. Department of Agriculture (USDA) and
                U.S. Agency for International Development (USAID) program
                commitments.

                     As reported in our prior audit report,1 we found that existing controls were
                     still insufficient to provide reasonable assurance that antitrust activities
                     such as price fixing, bid rigging, and other typical antitrust violations, were
                     detected and referred for investigation in conjunction with commodity
                     procurement awards totaling about $1.2 billion annually (fiscal years (FY)
                     2000 through 2002). KCCO had not adopted our audit recommendations
                     to use automated means to continuously analyze commodity vendor bid
                     information for suspected collusive bidding activities. We found that
                     vendor bids were still not being properly analyzed to identify potential
                     antitrust activities and no potential cases of suspected collusion had been
                     identified or referred to the Department of Justice (DOJ) and/or Office of
                     Inspector General (OIG).

                                      As in the prior audit, we recommend that FSA
      KEY RECOMMENDATIONS             take action to develop or contract for
                                      automated software capabilities designed to
                                      identify potential collusive bidding practices in
             conjunction with its commodity procurement operations. FSA should

1
    Audit of Agricultural Stabilization and Conservation Service Bidding Procedures and Awards for Processed Commodities (Audit
    Report No. 03099-3-FM, dated August 28, 1987).



USDA/OIG-A/03008-2-KC                                                                                                Page i
           consult with governmental, public, and/or private entities with experience
           in the subject field to facilitate the development or procurement of such
           software. We also recommend that FSA develop internal procedures and
           make antitrust enforcement a fundamental feature of its procurement
           activities by evaluating historical vendor bid information on a continuous
           basis and provide referrals of suspected collusions identified to DOJ
           and/or OIG, as appropriate.

                                   FSA      provided      comments,        dated
    AGENCY RESPONSE                August 22, 2003, to the  official draft report
                                   from the Deputy Administrator for Commodity
                                   Operations expressing general concurrence
        with the findings recommendations contained in the report (see exhibit A
        for the complete response). We have incorporated applicable portions of
        the FSA response, along with our position, in the Findings and
        Recommendations section of this report.

           The response stated that KCCO made changes since our 1987 audit that
           improved its ability to detect potential collusive practices. The changes
           include that bids are now received via electronic process as opposed to
           faxed or mailed bids. The response said that this process provides
           additional opportunity for contracting officers to closely review bids prior to
           awarding contracts. The response stated that, as a result of training by
           DOJ and of our suggestions, its staff developed an antitrust report for
           peas, beans, lentils, and rice as a first step because they thought these
           commodities were more prone to collusive bidding than others. The
           response said that the report helps identify vendor rotation of success in
           awards and looks at the percentage of the volume awarded to each
           individual vendor. It also contracted for training from a vendor to be
           conducted in October 2003 called “How to Identify Collusion.” The training
           is to provide an overview of collusion detection methods, red flags that
           may indicate collusive practices, and examples how the methods are used
           in investigations. However, it explained that it had not budgeted funds for
           software to detect collusive bidding.

                                         While the agency response is positive, we
        OIG POSITION                     remain concerned that the proposed action
                                         does not include a decision to pursue
                                         developing in-house or contracting outside
          sources for an automated computer software package that can be used to
          analyze historical vendor bid information on an ongoing basis. In its
          response, FSA did not provide sufficient information on internal reports
          KCCO is developing to identify antitrust activities for selected commodity
          procurements. We need to be informed as to the extent these reports
          utilize historical vendor bid information.

USDA/OIG-A/03008-2-KC                                                             Page ii
          In order to consider management decisions, we will need to be advised of
          the specific actions taken or planned and be provided with detailed
          timeframes for initiating and completing proposed corrective actions. The
          information needed has been incorporated into the OIG Position sections
          of the report.




USDA/OIG-A/03008-2-KC                                                      Page iii
                                      TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................................i
   RESULTS IN BRIEF....................................................................................................i
   KEY RECOMMENDATIONS .......................................................................................i
   AGENCY RESPONSE ...............................................................................................ii
   OIG POSITION...........................................................................................................ii
TABLE OF CONTENTS................................................................................................iv
INTRODUCTION............................................................................................................1
   BACKGROUND .........................................................................................................1
   OBJECTIVES .............................................................................................................3
   SCOPE .......................................................................................................................3
   METHODOLOGY .......................................................................................................4
FINDINGS AND RECOMMENDATIONS .......................................................................5
   CHAPTER 1 ...............................................................................................................5
   KCCO DID NOT IMPLEMENT PRIOR AUDIT RECOMMENDATIONS.....................5
   FINDING NO. 1 ..........................................................................................................5
   RECOMMENDATION NO. 1 ......................................................................................9
   RECOMMENDATION NO. 2 ......................................................................................9
   RECOMMENDATION NO. 3 ....................................................................................10
   RECOMMENDATION NO. 4 ....................................................................................11
EXHIBIT A – AUDITEE’S RESPONSE TO THE DRAFT REPORT.............................13
ABBREVIATIONS........................................................................................................18




USDA/OIG-A/03008-2-KC                                                                                                  Page iv
                           INTRODUCTION

                                       The Commodity Credit Corporation (CCC) is a
       BACKGROUND                      wholly-owned    Government      corporation
                                       created in 1933 to stabilize, support, and
                                       protect farm income and prices; to help
         maintain balanced and adequate supplies of agricultural commodities,
         including products, foods, feeds, and fibers; and to help in the orderly
         distribution of these commodities. CCC was originally incorporated under
         a Delaware charter and was reincorporated in 1948, as a Federal
         corporation within the U.S. Department of Agriculture (USDA) by the CCC
         Charter Act (15 U.S.C. 714). CCC has no operating personnel. Its
         activities are carried out by USDA agencies and personnel, including the
         facilities of the Farm Service Agency (FSA).

          The FSA Kansas City Commodity Office (KCCO) in Kansas City, Missouri,
          is responsible for the procurement, transportation, and disposition of food
          commodities to fulfill USDA and U.S. Agency for International
          Development (USAID) program commitments. Private industry works in
          partnership with USDA and other Government agencies to supply the
          various programs with high-quality, nutritious products that meet program
          requirements. During FY’s 2000 through 2002, approximately $1.2 billion
          in commodities were procured and distributed annually through domestic
          and foreign food aid programs.

          When surplus commodities are available, CCC aids in the donation of
          Government-owned commodities for use in domestic and foreign feeding
          programs. Within USDA, FSA and the Agricultural Marketing Service
          (AMS) coordinate with the Food and Nutrition Service (FNS) to purchase
          and supply commodities used in a variety of domestic feeding programs
          including the National School Lunch Program. The commodities FSA
          procures include dairy products, processed grain products, peanut
          products, and vegetable oil. For foreign food assistance programs, FSA
          also procures and supplies commodities for USAID and USDA Foreign
          Agricultural Service (FAS) for overseas humanitarian and developmental
          use under Titles II and III of P.L. 480, Food for Progress, and section
          416 (b) programs. Private voluntary organizations distribute many of the
          commodities overseas. Commodity purchases are based on program
          needs and available funding by Congress.



USDA/OIG-A/03008-2-KC                                                        Page 1
          The Federal Acquisition Regulations (FAR) apply to most Federal
          executive agencies in the acquisition of supplies and services with
          appropriated funds. The Agriculture Acquisition Regulation (AGAR),
          located in the Code of Federal Regulations (CFR) at Title 48, chapter 4,
          prescribes Departmental regulations that implement and supplement the
          FAR.

          KCCO uses the sealed bidding methods as prescribed by FAR when
          contracting for commodity purchases. Invitation for bids are sent to prior
          suppliers or other interested companies.

          For example, domestic use commodities are purchased from various
          commercial vendors through regularly scheduled solicitations (invitations)
          and bid processes. Invitations may be scheduled on a monthly, bimonthly,
          quarterly, or long-term basis to meet program commitments. For the
          domestic programs, KCCO marketing specialists (MS) receive Food
          Requisition Orders or Delivery Orders from various agencies e.g., FNS.
          MS then review and adjust the Delivery Orders to develop a work list of
          items to be purchased for a particular delivery period. Work lists are
          processed through the automated Processed Commodities Inventory
          Management System (PCIMS). PCIMS generates an invitation file from
          which the applicable invitation detail is downloaded for each commodity.
          PCIMS also generates an invitation detailing the solicitation terms which
          include: the delivery periods, total pounds, small business program
          requirements (if applicable), offer due dates and times, and dates and
          times of Notification of Award and Public Release of Award information, as
          well as other specifications and certifications.

          FSA maintains a web site where the procurement schedule, solicitation
          details, and award information are posted. Invitations are also posted on
          the FSA web site and a courtesy electronic mail (e-mail) message is sent
          to the commodity vendors. Vendors can be included in the invitation
          process by submitting an application to FSA. For each invitation, vendors
          have approximately 11 days to submit an offer via the Domestic Electronic
          Bid Entry System (DEBES). Modifications, changes, or withdrawal of
          vendors bids can also be submitted utilizing DEBES. Modifications,
          changes, and withdrawals are accepted up to the closing date and time
          specified in the invitation. Invitations normally close at 9:00 a.m. on
          Mondays.

          The bid analysis is normally completed on Monday of each week.
          Successful vendors are notified via an acceptance wire, which is faxed to
          the vendor on day two of the process (normally by 10:00 a.m. on
          Tuesday). The Public Release of Awards is also posted to the FSA
          web site, normally by 4:00 p.m. on Tuesday. A Freedom of Information

USDA/OIG-A/03008-2-KC                                                       Page 2
          Act report and/or Item Register Report are posted to the web site 1 week
          following the release of the award information. This information remains
          on the FSA web site for approximately 2 months.

          The Department of Justice’s (DOJ) Antitrust Division encourages agency
          personnel to recognize common collusive bidding patterns including bid
          suppression, complementary bidding, bid rotation, and market division. Bid
          suppression occurs when one or more competitors (who would otherwise be
          expected to bid) refrain from bidding or withdraw a previously submitted bid,
          so that a competitor’s bid will be accepted. Complementary bidding occurs
          when competitors submit token bids that are too high to be accepted or
          submit special terms that will not be acceptable. Bid rotation is when all
          vendors participating in the scheme submit bids, but by agreement, take
          turns being the low bidder or take turns based on the size of the contract.
          Market division schemes are agreements between vendors to refrain from
          competing in designated portions of the market.

                                      Our primary survey objectives were to follow up
        OBJECTIVES                    and determine what corrective actions had been
                                      implemented     by     FSA/CCC       on     the
                                      recommendations made in our preceding audit
         report on this matter and to assess FSA/CCC management controls at
         KCCO to determine if they were sufficient to detect potential antitrust
         activities in procuring commodities.

                                          Our review concentrated on domestic program
           SCOPE                          commodity procurements for FY’s 2000 through
                                          2002 programs and focused on the availability
                                          of automated controls to analyze domestic bids
          to detect collusive bidding practices. The audit was conducted at the FSA
          National office, located in Washington, D.C., and at KCCO, located in
          Kansas City, Missouri. We also contacted other Federal agencies, private
          entities, and academic institutions to gather information about the antitrust
          activities and, specifically, on those activities that related directly to collusive
          bidding practices among vendors.

          During FY’s 2000 through 2002, FSA/CCC procured and distributed
          annually approximately $1.2 billion in commodities to domestic programs
          and to foreign countries. Our fieldwork was conducted during April 2002
          through December 2002.

          We conducted the audit survey in accordance with Government Auditing
          Standards.



USDA/OIG-A/03008-2-KC                                                                Page 3
                                      To accomplish our survey objectives, we
       METHODOLOGY                    reviewed     Federal      and      Departmental
                                      procurement regulations, policies, procedures,
                                      manuals, and instructions. We also interviewed
         FSA/CCC officials in Washington, D.C., and Kansas City, Missouri, to identify
         and evaluate the controls over FSA/CCC bidding activities, particularly, their
         detection, tracking, monitoring, and reporting of potential collusive bidding
         among vendors of FSA/CCC contracts. We identified and assessed the
         automated controls available in the PCIMS. We judgmentally selected and
         reviewed various bid data including data entry forms and reports related to
         processing, evaluating, and awarding contracts for commodities.

           As part of our examination, we also contacted other Federal governmental
           agencies, including the General Services Administration, Department of
           Health and Human Services, FAS, FNS, Environmental Protection Agency,
           AMS, Forest Service, Department of Transportation, and Department of
           Defense. We identified those policies, procedures, processes, and/or
           controls in place at those agencies to detect, track, monitor, and report
           potential antitrust activities.

           In addition, we contacted nine non-federal agencies and six academic
           institutions in an effort to identify any other entities that had established and
           put in place any processes or procedures to detect, track, monitor, and report
           antitrust activities.




USDA/OIG-A/03008-2-KC                                                               Page 4
            FINDINGS AND RECOMMENDATIONS


 CHAPTER 1        KCCO DID NOT IMPLEMENT PRIOR AUDIT
                  RECOMMENDATIONS


                                         As reported in our prior audit, we found KCCO
        FINDING NO. 1                    personnel still had done little detailed analyses
                                         of commodity procurement bids in order to
                                         identify potential antitrust activities, such as
           collusive bidding, among vendors. We also found that no automated
           software mechanism had been developed or obtained from outside sources
           to evaluate commodity bids for potential antitrust violations as recommended
           in our prior report. Agency officials stated there was not sufficient personnel
           or time to manually review the large volume of commodity bids received to
           identify any potential illegal bidding patterns. However, FSA personnel
           stated that they did review the bids for inconsistencies and, based on their
           collective knowledge of their bidders, they would know whether bidders were
           involved in collusive bidding. KCCO officials could not explain why no further
           actions were ever taken to develop a structured process to evaluate
           commodity bids to identify potential antitrust violations. As a result, with no
           specific type of review being completed to identify potential antitrust
           violations, there was insufficient assurance that potential cases of antitrust
           activities would be detected and referred for investigation for a commodity
           procurement program in which approximately $1.2 billion worth of
           commodities were purchased annually.

           FAR, subpart 3.301, states, in part, that contracting personnel are an
           important potential source of investigative leads for antitrust enforcement
           and should, therefore, be sensitive to indications of unlawful behavior by
           vendors and contractors. Agency personnel shall report, in accordance
           with agency regulations, evidence of suspected antitrust violations in
           acquisitions. In addition, subpart 3.303 states that agencies are required
           by 41 U.S.C. §253b(i) and 10 U.S.C. §2305(b)(9) to report to the Attorney
           General any bids or proposals that evidence a violation of the antitrust
           laws. Any agreement or mutual understanding among competing firms
           that restrains the natural operation of market forces is suspect.

           AGAR, subpart 403.303, “Reporting Suspected Antitrust Violations”, states
           that contracting officers shall report the circumstances of suspected

USDA/OIG-A/03008-2-KC                                                             Page 5
          violations of antitrust laws to the OIG in accordance with procedures in
          Departmental Regulation (DR) 1710-2, OIG/Investigations Organization and
          Operations (since superceded by DR 1700-2).            In addition, subpart
          403.104-10, “Violations or Possible Violations,” states, in part, that the
          contracting officer shall forward information concerning any violation to the
          chief of the contracting office. Also, heads of contracting activities or their
          designees who receive information concerning any violation or possible
          violation are required to take action and refer the reports directly to the
          Attorney General, as stated in FAR subpart 3.301, and send a copy of each
          to the Director, Office of Operations.

          DOJ further advises that price fixing is most likely to occur in industries
          where (1) there are only a few sellers of the product, (2) the product cannot
          easily be substituted for another product, and (3) the product is more
          standardized and it is easier for competing firms to reach agreement on a
          common price. We noted these conditions all exist in the CCC processed
          commodity purchase programs. For example, domestic processed cereals
          purchased on August 20, 2002, under Invitation 650 to Announcement 650
          (approximately 2.7 million pounds) during the August 2002 domestic
          program bid cycle, had 4 or less vendors bidding on it. Also, our review
          disclosed that the average number of vendors that placed bids per each type
          of bid invitation on major processed commodity groups offered by FSA/CCC
          usually ranged from about 5 to 10 bidders.

          MS evaluates domestic processed commodity bids by using reports
          generated by PCIMS. The Offer Data Reports detail the bidder register,
          price changes, and bidder constraints. The Item Register Reports detail
          the price offered by the bidders and the transportation mode offered by
          each bidder. The Bid Evaluation Reports detail award control by item,
          bidder, and any constraints.

          The MS’ reviews of the PCIMS reports are used to complete the final
          evaluation of bid invitations. MS is responsible for assuring that small
          business program, HUB Zone (small firms and businesses located in
          economically depressed areas throughout the United States), and first
          time bidder goals, regulations, and policies are met. To meet these
          requirements, MS is frequently required to allot portions of the overall
          award and generate new Modified Reports, based on these constraints.
          Once final awards are determined, Post Award Reports are requested via
          PCIMS to detail the contract abstracts and create delivery and forwarding
          notices. However, we found that the PCIMS reports were not being
          utilized to analyze bidding and award data for indications of collusive
          bidding activities.



USDA/OIG-A/03008-2-KC                                                            Page 6
          KCCO informed us that constructed prices, which include several different
          cost variables, are calculated for each commodity by package size.
          KCCO uses constructed prices to identify vendor bids that may be
          excessive. However, we found that although this control provides a
          reasonableness check to identify and eliminate potential excessive bids, it
          could allow collusive bids to be accepted.

          We reported in a prior audit report (OIG Audit Report No. 03099-3-FM,
          dated August 28, 1987) that vendor bids were not being analyzed to
          identify potential antitrust violations. At that time, the agency attributed
          this condition to the large number of commodity bids received and the
          amount of personnel time that would be required to manually review the
          bids. We recommended that the agency develop in-house or contract for
          an automated software package that could analyze historical vendor bid
          information on an ongoing basis and provide potential leads on collusive
          bidding practices for procuring commodities. We also recommended that
          the agency consult with other Federal agencies or private software
          vendors who could provide guidance and direction in preparing a software
          package to meet the agency’s requirements, evaluate historical vendor bid
          information on a continuous basis, and provide referrals of suspected
          collusion to DOJ and/or OIG, as appropriate.

          In response to the audit recommendations, KCCO stated that a review of
          the domestic and export bidding procedures and evaluations under which
          contracts were awarded led it to the conclusion that it would not be cost
          effective at that time to establish a software program for analysis of
          historical bid data for potential collusive bidding practices. KCCO further
          stated that it did not believe that a large expenditure of time and resources
          was warranted, but would consider the feasibility of using in-house
          programs to develop and implement the evaluation of possible collusive
          bidding practices after PCIMS was installed. However, our review
          disclosed that no further action was taken by the agency to develop an
          automated means to prevent or detect collusive bidding practices. KCCO
          officials could not offer an explanation why no further actions were ever taken
          to develop a structured process to prevent or detect collusive bidding
          practices.

          During our current review, we found that FSA had not documented any
          agency regulations or procedures requiring the review and analysis of
          commodity bids for indications of collusion.         However, our review
          disclosed that other Federal agencies had instituted these types of
          controls in their programs. For example, the Department of Transportation
          was utilizing automated bid analysis techniques to detect collusive bidding
          practices in road and bridge construction contracts.


USDA/OIG-A/03008-2-KC                                                            Page 7
          After we brought these conditions to their attention, KCCO officials stated
          that they were in agreement that such procedures are needed, and they
          are now in the process of putting those procedures together. KCCO
          officials also stated that they would incorporate an agricultural marketing
          specialist review schedule for the system reports that they have, including
          recently-initiated “Anti-Trust Reports”, that can be made available for all
          awards for the processed export commodities together with a separate
          report showing identical bids for review.
          During our review, we identified and contacted a private industry computer
          software vendor that has designed automated bid analysis packages to
          detect collusive bidding practices. Our intent was to determine if the
          computer software package could be used to analyze the FSA/CCC
          processed commodity vendor bids. The vendor indicated that its software
          package could be modified to analyze the KCCO bid information but the
          vendor would need to determine what kinds of bid information is maintained
          by KCCO.

          KCCO officials advised us that they had met with DOJ on May 7, 2002, and
          obtained recent DOJ training on antitrust issues, including collusive bidding.
          In addition, on November 19, 2002, KCCO officials met with the vendor we
          identified as part of their process to establish a software package that would
          assist them in identifying, tracking, and monitoring potential collusive bidding
          violations among their vendors. KCCO officials have not made any final
          determination as to the avenue that they would pursue in developing and/or
          purchasing a software package that would meet their needs in checking,
          tracking, and monitoring collusive bidding by vendors.

          Due to the size of the processed commodity programs (currently about
          $1.2 billion annually), we continue to believe that FSA/CCC needs to develop
          procedures to analyze vendor bids on an ongoing basis for potential antitrust
          activities. Because of the volume of offer and award data, FSA needs to
          develop in-house or obtain computer software capability that will effectively
          analyze vendor bids on an ongoing basis for potential antitrust activities.
          This automated software must include procedures and processes that can
          analyze historical vendor bid information on an ongoing basis and provide
          potential leads on collusive bidding practices for commodities. FSA/CCC
          should make antitrust enforcement a fundamental feature of all its
          commodity procurement activities by evaluating vendor bid information on
          a continuous basis and providing referrals of suspected collusion to DOJ
          and/or OIG, as appropriate. Based on the lack of corrective action taken to
          address the recommendations in our prior audit report, we are reiterating our
          recommendations that FSA/CCC:



USDA/OIG-A/03008-2-KC                                                             Page 8
                                      Develop in-house or contract outside sources
  RECOMMENDATION NO. 1                for an automated computer software package
                                      that can adequately analyze historical vendor
                                      bid information on an ongoing basis and provide
        potential leads on collusive bidding practices for procuring commodities.

            FSA/CCC Response

            FSA responded that KCCO made changes that improved its ability to
            detect potential collusive bidding practices. The agency explained that the
            way it procures commodities for CCC and USDA has significantly changed
            since the first audit in 1987. It said that with the exception of bulk
            commodities, bids are received via an electronic process as opposed to
            using the fax or mail for bids and that this provides additional opportunity
            for contracting officers to closely review bids prior to awarding contracts.

            FSA said it invited a software vendor to make a presentation on the
            vendor’s capabilities of providing service. FSA stated that the vendor’s
            software could possibly be modified to fit the KCCO bid process. However
            the estimated $200,000 start up and $75,000 annual license fee was not
            in the budget. A decision was not made as to whether to pursue this
            avenue. And, before such decision is made, it will further research and
            discuss the most efficient and cost effective approach to analyze historical
            data for potential leads on collusive bidding practices.

            OIG Position

            OIG continues to believe an automated analysis or process is needed to
            adequately analyze historical vendor bid information on a continuous
            basis. Before we consider the management decision, we need to receive
            information on whether the agency intends to use computer software to
            automate its system to analyze historical bid data information on an
            ongoing basis and provide potential referrals on collusive bidding practices
            for commodities. If it is determined that an automated process will not be
            implemented, FSA needs to provide additional information on the
            compensating controls it will put in place to ensure uniformity and
            consistency in analysis as well as corrective actions. Also, timeframes for
            implementing these actions must be provided.

                                        Consult with other Federal agencies, e.g., the
  RECOMMENDATION NO. 2                  Department of Transportation or private
                                        computer software vendors, with experience in
                                        collusive bidding software packages, to obtain



USDA/OIG-A/03008-2-KC                                                           Page 9
           guidance and direction in preparing a specific software package to meet
           FSA/CCC contract bidding collusive detection requirements.

           FSA/CCC Response

           FSA stated that it would be most beneficial if OIG could share additional
           information gathered from other Federal agencies, private entities and
           academic institutions so it can further develop policy, procedures,
           processes and controls that identify potential antitrust activities. FSA
           further asked for our assistance in identifying which commodities are most
           prone to collusive bidding so as to focus its efforts on vulnerable
           commodities and better develop tracking and monitoring systems.

           OIG Position

           During the review, OIG made all the information we gathered available to
           the agency. In regard to determining which commodities would be more
           prone than others to collusive bidding, we believe that the Department of
           Justice, industry trade associations, and commodity vendors would be
           better sources of information on complaints, investigations, and/or
           prosecutions involving specific commodities. This type of information
           would be developed upon implementation of a software package designed
           to analyze historical data and to identify trends and potential collusion
           among various types of commodities.

           Before we consider the management decision, we need additional
           information on the efforts by the agency in developing an automated
           means or an active compensating control process to detect and report
           potential collusive bidding practices.

                                    Develop internal procedures requiring the
  RECOMMENDATION NO. 3              review and analysis of commodity bids for
                                    indications of collusion.   Make antitrust
                                    enforcement a fundamental feature of KCCO
        commodity procurement activities by evaluating historical vendor bid
        information on a continuous basis and providing referrals of suspected
        collusions to DOJ and/or OIG, as appropriate.

           FSA/CCC Response

           FSA responded that DOJ conducted collusive bidding training called
           “Think Antitrust” for its office on March 7, 2002. It said that as a result of
           the training and OIG suggestions, its staff developed an antitrust report for
           peas, beans, lentils, and rice in the Export Operations Division because it
           thought these commodities might be more prone to collusive bidding than

USDA/OIG-A/03008-2-KC                                                           Page 10
          others. It said that the report helps identify vendor rotation of success in
          awards and looks at the percentage of the volume awarded to each
          individual vendor. It said the Dairy and Domestic Operations Division is
          generating a similar report for rice purchases for domestic programs.
          Also, it said that it recently made the decision to move contract data for
          purchases made by the Bulk Commodity Division to PCIMS and it hopes
          to be able to generate the same type of report once the conversion is
          complete.

          The agency further responded that at the time of the audit, it reported to
          OIG that no reports of potential collusive practices were referred to DOJ or
          OIG. The agency said that due to an Historically Underutilized Business
          Zone issue, OIG is currently conducting a review based on information the
          agency provided on an award that was made but terminated.

          OIG Position

          Before we can consider management decision, we need to be provided
          additional information on the internal procedures or processes being
          developed for analyzing the vendor bid information for selected commodities.
           We need to be provided information on the procedures FSA will put in place
          to insure conformity and consistency in application, including the extent the
          cited antitrust reports provide analyses of historical bidding information for
          the commodities. We will also need to be provided the timeframe for
          accomplishing the planned actions.

                                       Issue periodic reminders to KCCO procurement
  RECOMMENDATION NO. 4                 personnel stressing the importance of
                                       preventing and detecting collusion, particularly,
                                       collusive bidding practices, amongst vendors of
          FSA/CCC contracts.

          FSA/CCC Response

          The agency responded that from a management standpoint, guarding
          against collusion will be a high priority and one that will continue to be
          emphasized with staff. The agency said that a software vendor will
          conduct two days of computerized training called “How to Identify
          Collusion” in October 2003. The training is to provide an overview of
          collusion detection methods, red flags that may indicate collusive
          practices, and examples of how these methods are used in investigations.
          The agency said that, depending upon the availability of funds, it would
          ask the vendor or another qualified firm to review its collusive bidding
          reports and processes and to provide suggestions on improving the
          current system. The agency intends to issue periodic reminders to

USDA/OIG-A/03008-2-KC                                                          Page 11
          employees who are involved in procurements that stress the importance of
          preventing and detecting collusion and collusive practices on CCC
          contracts.

          OIG Position

          To achieve management decision, we need to be advised of the date
          when the contemplated actions will be accomplished and the frequency
          the reminders will be provided.




USDA/OIG-A/03008-2-KC                                                    Page 12
EXHIBIT A – AUDITEE’S RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/03008-2-KC                                Page 13
USDA/OIG-A/03008-2-KC   Page 14
USDA/OIG-A/03008-2-KC   Page 15
USDA/OIG-A/03008-2-KC   Page 16
USDA/OIG-A/03008-2-KC   Page 17
                          ABBREVIATIONS

     AGAR       -       Agriculture Acquisition Regulation
     AMS        -       Agricultural Marketing Service
     CCC        -       Commodity Credit Corporation
     CFR        -       Code of Federal Regulations
     DEBES      -       Domestic Electronic Bid Entry System
     DOJ        -       Department of Justice
     FAR        -       Federal Acquisition Regulations
     FAS        -       Foreign Agricultural Service
     FNS        -       Food and Nutrition Service
     FSA        -       Farm Service Agency
     FY         -       Fiscal Year
     KCCO       -       Kansas City Commodity Office
     MS         -       Marketing Specialists
     OIG        -       Office of Inspector General
     PCIMS      -       Processed Commodities Inventory Management System
     USAID      -       U.S. Agency for International Development
     USC        -       United States Code
     USDA       -       U.S. Department of Agriculture




USDA/OIG-A/03008-2-KC                                                Page 18
